<html>
<title> - CHILDREN MIGRATING FROM CENTRAL AMERICA: SOLVING A HUMANITARIAN CRISIS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             CHILDREN MIGRATING FROM CENTRAL AMERICA: 
                   SOLVING A HUMANITARIAN CRISIS
=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2014

                               __________

                           Serial No. 113-182

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
88-460                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin>--
    added 5/29/14 noon 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida>               THEODORE E. DEUTCH, Florida
TREY RADEL, Florida--resigned         ALAN GRAYSON, Florida
    
SEAN DUFFY, Wisconsin --5/
    30/14 noon 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Francisco Palmieri, Deputy Assistant Secretary for Central 
  America and the Caribbean, Bureau of Western Hemisphere 
  Affairs, U.S. Department of State..............................     9
Mr. Mark Lopes, Deputy Assistant Administrator, Bureau for Latin 
  America and the Caribbean, U.S. Agency for International 
  Development....................................................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Francisco Palmieri: Prepared statement.......................    11
Mr. Mark Lopes: Prepared statement...............................    19

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41


 CHILDREN MIGRATING FROM CENTRAL AMERICA: SOLVING A HUMANITARIAN CRISIS

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2255 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr. Salmon. Quorum being present, the subcommittee will 
come to order and I will start by recognizing myself and 
Ranking Member Albio Sires to present our opening statements.
    Without objection the members of the subcommittee can 
submit their opening remarks for the record and now I yield 
myself as much time as I might consume.
    Good afternoon and thank you all for joining us today in 
convening this hearing on the humanitarian crisis that has been 
unfolding as a result of thousands of unoccupied children 
showing up at our border.
    President Obama's political spin team and the White House 
are calling this a humanitarian situation. I visited a location 
where these children are being held in Nogales, Arizona. I saw 
children as young as four essentially warehoused and I can tell 
you it is not a situation. It is a crisis.
    Not only have relevant agencies been overwhelmed, but our 
national security has been put at risk as the border security 
resources have been diverted to deal with the crisis. Virtually 
all of the 140 volunteers from the Customs and Border Patrol 
that are at this facility are volunteers who have basically 
left the border to take care of these children. In the last 8 
months, over 47,000 unaccompanied minors have been apprehended 
at our border.
    In the first part of this fiscal year, Border Patrol has 
seen a 700 percent increase in children coming from El Salvador 
alone and illegally, 930 percent increase in children coming 
from Guatemala, and a 1,200 percent in children coming 
illegally from Honduras, compared to all of 2009.
    When I toured the warehouses in Nogales, I couldn't help 
but ask how many children didn't make it, how many became ill, 
were sold into prostitution, or were murdered and never made it 
to the border.
    Since the magnitude of this crisis began hitting the 
airwaves, we have heard the administration scramble to describe 
all the push and the pull factors all of which are indeed 
contributing factors.
    What is missing from the administration is a clear 
statement repudiating the President's own declaration in the 
Rose Garden back in 2012 the he would no longer enforce 
elements of our immigration laws, which has been the primary 
impetus for the massive increase in unaccompanied minors 
arriving illegally on our doorstep.
    President Obama's decision to flout U.S. immigration law 
spread like wildfire through the region and very clearly 
prompted mothers and fathers in Central America to do the 
unthinkable--send their children on a dangerous voyage at the 
mercy of human traffic smugglers and criminals.
    These children were lured by rumors that they would receive 
permisos at the border allowing them to stay, rumors 
originating with the President's own deferred action directive.
    The fact is President Obama's unwillingness to enforce 
immigration law and secure our borders not only impacts the 
security of U.S. citizens, but has had the immoral effect of 
incentivizing young vulnerable children to risk their lives and 
suffer untold indignities rather than stay with their families 
where they belong.
    Encouraging children to make a dangerous trek and then 
warehousing them away from their families is definitely not 
compassionate. The right and moral thing to do is reunite these 
children with their families in their home countries while 
helping those countries create conditions for security and 
opportunity, and I think we have a responsibility to work with 
those countries to get that done.
    But the first step has to be taken by this administration. 
It is for President Obama to make a public appearance, to walk 
back his continued flouting of U.S. immigration and border 
security policy and tell the world that the United States will 
protect its borders while discouraging families from risking 
their lives and the lives of their children unnecessarily.
    Press releases and letters to regional heads of state are 
not going to be sufficient. Public diplomacy efforts have got 
to be robust. The President must own his substantial role in 
creating this crisis.
    It is the morally correct thing to do and I really hope he 
will. Second, we have got to take immediate steps to send those 
children to their country of origin to be reunited with their 
families.
    Failure to act quickly and return these kids is going to 
cause even more children to risk the perilous trip north. Right 
now they are paying about $5,000 to $8,000 apiece.
    Think of how much that represents of a person's income that 
lives in Honduras or El Salvador. It probably represents an 
entire year for them. And if they are seeing, by our actions, 
that those efforts are going to be fruitless and that is going 
to be a waste of money, it is going to stop.
    Following these immediate steps we have to look at the 
conditions in our hemisphere that create this kind of abject 
desperation that would drive a parent to send their small 
children far away from home in search of a better life.
    We spend time on this subcommittee looking at the 
insecurity that plagues Central America, the criminality fused 
by transnational criminal organizations and gangs and the lack 
of economic opportunity that is made worse by these realities.
    I convened this hearing today because I want to work with 
State and USAID to find better and more effective ways to help 
the countries of Central America to combat this scourge of 
criminality and empower economic growth and opportunity.
    The dangerous level of criminality is absolutely a 
contributing factor to the shocking uptick in unaccompanied 
minors making this dangerous trip to escape the growing 
violence in the Northern Triangle. Honduras has the highest 
murder rate in the world with El Salvador and Guatemala ranked 
fourth and fifth.
    Reports from Honduras and El Salvador reveal that children 
are increasingly forced to participate in gang and criminal 
activities. We need to take a hard look at specific CARSI 
programs to evaluate if they have been truly effective at 
combating the scourge of narcotics trafficking and criminal 
enterprises.
    Mexico is affected by the growing violence in Central 
America just as we are. We have got to find ways to get Mexico 
to take a bigger role in helping Central American nations in 
partnership with the United States, and to that end I would 
like to see an itemized accounting of the types of USAID 
programs being employed in the region and an honest assessment 
of whether or not they are working. This is a crisis.
    In addition, I would like to convey my frustration that 
over the last 18 months, we have conducted several hearings on 
the region and specifically the challenges and opportunities 
facing the Western Hemisphere.
    Yet not one of the individuals testifying before this 
committee mentioned the developing situation of dramatically 
increasing numbers of minors fleeing the Northern Triangle and 
crossing our border.
    While the media is now highlighting this crisis, the fact 
is the administration knew about this months ago and, frankly, 
failed to put in place adequate resources to address the flow 
or develop a comprehensive response to the growing crisis.
    Finally, earlier this year when Secretary Kerry was 
testifying before the full committee, I lamented the lack of 
action the Western Hemisphere was receiving from the 
administration.
    I went on to ask him if he believed, with all the crises 
around the globe, if spending scarce resources on solar panels 
and abortion pills in Guatemala were the best use of taxpayer 
dollars.
    To my utter surprise, the Secretary responded that climate 
change was the most significant crisis facing our country and 
the globe.
    With all due respect, this situation of unaccompanied 
minors fleeing their homeland is an immediate crisis that 
demands an immediate response that focuses on development and 
jobs over pet environmental projects.
    And to that end, when the money became available in the 
region from the closure of Ecuador and Bolivia missions those 
funds should have been retargeted toward addressing this UAC 
crisis, not spent on environmental intervention in Colombia, a 
middle-income nation.
    Now is the time for USAID and State to make judicious use 
of taxpayers' hard earned money to help empower the people of 
these affected countries economically, to help them find ways 
to diversify their crops, to attract foreign investment, to 
encourage entrepreneurialism and economic freedom over a life 
of criminality and violence.
    I am honored that the speaker appointed me to the 
congressional task force he constituted to look for solutions 
for this humanitarian crisis. I look forward to working with my 
colleagues and the administration to craft a swift, fair, 
appropriate and compassionate response to the crisis so we can 
get these children home with their families on a path to a more 
prosperous and secure region.
    I am grateful to both Mr. Palmieri and Mr. Lopes for coming 
before this subcommittee today and I look forward to a 
constructive discussion on what we can do to mitigate the 
humanitarian crisis unfolding at our doorstep.
    And I will now recognize the ranking member for his opening 
remarks.
    Mr. Sires. I am going to cede to the ranking member of the 
full committee, Congressman Engel.
    Mr. Engel. Thank you. Thank you very much. I appreciate it, 
as I have to leave for another meeting. But I want to thank 
you, Mr. Chairman--Chairman Salmon--and Ranking Member Sires, 
for holding today's hearing on this important topic.
    As the former chairman of the Western Hemisphere 
Subcommittee, I always feel at home coming back here to this 
subcommittee. This is a subcommittee where I have done some of 
my best work on the Foreign Affairs Committee as chairman and 
as ranking member as well, and as ranking member of the entire 
Foreign Affairs Committee, we always talk about the 
collaborative effort and the bipartisan effort that we always 
have on this committee.
    I think it makes our committee stand up far behind any 
other committee in Congress in showing what Congress can do in 
working together, how much we can accomplish and I think of no 
better way than when it comes to foreign affairs that foreign 
policy, foreign relations should be done on a bipartisan basis 
because America is stronger when we have bipartisan support, 
and we obviously have very talented people on both sides of the 
aisle, and so it is a pleasure to see this being done again in 
a bipartisan fashion.
    As a father, my heart goes out to all of the unaccompanied 
children making the dangerous trek from Central America to the 
United States. I know that some have responded to the large 
influx of children arriving in our country by calling for 
harsher enforcement of our immigration laws.
    While we must continue to enforce our immigration statutes, 
cracking down on children is clearly not the answer. Last week, 
I sent a letter to the President which was signed by 61 of our 
House colleagues urging the administration to increase 
resources for programs that get at the root cause of 
unaccompanied children migrating here from Central America.
    My letter calls for significant investments in State 
Department and USAID initiatives in El Salvador, Guatemala and 
Honduras that focus on youth gang prevention and economic 
development. It also urges funding for efforts designed to 
integrate returning children into their home countries.
    This does not mean simply reprogramming existing funding, 
but instead means increasing the President's Fiscal Year 2015 
request for Central America.
    The administration justifiably increased the Department of 
Health and Human Services Office of Refugee Resettlement Fiscal 
Year 2015 request for its unaccompanied alien children program 
from $868 million to $2.28 billion.
    Something similar can and should be done to provide funding 
that gets at the root causes of this migration pattern. I am 
pleased that Vice President Biden announced some added funding 
in Guatemala last Friday, and I was also pleased that the 
Senate Appropriations Committee increased funding for these 
programs.
    Mr. Chairman, thank you again for holding today's hearing. 
As I have said at another forum previously, you have been a 
friend and partner of mine for many, many years and doing 
outstanding work as usual and as chairman of this subcommittee.
    Mr. Sires, we have also worked together on so many 
different things, and it is really great seeing the two of you 
working together.
    So I look forward to working with you and other members of 
this committee to increase foreign assistance to Central 
America to address the root causes of the current wave of child 
migration. Thank you.
    Mr. Salmon. Thank you. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and thanks for the 
timeliness of this hearing. Some of the things I want to hear 
today, if you will take a look at that map right up there and 
you can't make out Guatemala, Honduras, El Salvador, but I know 
where they are.
    I can see Mexico very, very clearly. That is a long way for 
these children to transit. It is hard for me to realize and 
comprehend that moms and dads would actually send children, and 
if you look at some of the pictures these kids are 3, 4, and 5 
years old.
    The moms and dads actually send them off that far on that 
kind of a journey unaccompanied. So I would like to find out if 
brothers and sisters are traveling with them, older teenage 
brother and sisters, parents, possibly transiting all the way 
through Mexico to get to the RGV.
    I also want to hear today about this so-called aggressive 
public outreach campaign to counter false messages and 
accurately portray the dangers of the journey. Okay to 
accurately portray the danger of the journey, but I want to 
know what sort of counter false messages--I want to know what 
that means.
    Are you saying don't come to America?--you will not get 
amnesty, you will not get citizenship--in fact, you will be 
deported back to your home country if you come--moms and dads, 
don't send those children to this country because they are 
going to be returned to you.
    Chain migration is something that we should not allow. I 
want to hear what sort of message you are relaying into those 
countries because it has created a crisis situation on our 
border. We need a tourniquet down there. We need to stop the 
hemorrhaging of illegals flowing into this country. Not just 
the children. That is the topic of today--I realize that.
    But we have a crisis situation on our border with folks 
entering our country that will eventually put a strain on our 
social services and our budget. We are $18 trillion in debt.
    The President called for $1.8 billion humanitarian effort. 
Well, where does that money come from? It comes from taxpayers 
in South Carolina and Arizona to go to pay for unexpected folks 
that are coming into this country for a humanitarian effort, 
and so I want to talk a little bit about that today.
    I appreciate what the State Department and what DHS is 
trying to do, and I appreciate this hearing, Mr. Chairman. I 
yield back.
    Mr. Salmon. Thanks. Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing. I want to thank our witnesses for being here today. 
Over the past months we have been witness to an unprecedented 
number of child migrants coming to the U.S. from Central 
America, in particular the Northern Triangle countries of El 
Salvador, Guatemala and Honduras.
    It is clear that the groundswell of unaccompanied child 
migrants arriving at the U.S.-Mexico border have resulted in a 
humanitarian crisis. This crisis will not be resolved overnight 
or with quick short fixes.
    It will require dedicated shared responsibilities and 
regional response. For its part, the Congress must ensure that 
the U.S. authorities manage the processing of detained child 
migrants as humanely and transparently as possible while 
respecting their basic human rights and legal protection.
    In turn, Northern Triangle governments must acknowledge 
common factors driving unaccompanied child migrants, 
specifically, the lack of economic opportunities and high 
levels of criminal violence in their home countries.
    More importantly, it is incumbent upon the regions' 
governments to inform potential migrants and their families of 
the life-threatening dangers involved in the migratory journey 
and dispel any misgiving regarding current U.S. immigration 
policies, a status quo that remains unchanged.
    Pronouncements that deny or implicitly ignore these factors 
exacerbate the unfolding crisis, do a disservice to the 
families that endure these stark realities every day and 
debilitate efforts in the Congress to provide further 
assistance that address the root causes of Central American 
child migration, let alone comprehensive immigration reform.
    The Northern Triangle region in Central America is amongst 
the most violent in the world. According to the United Nations, 
Honduras is ranked first, El Salvador is ranked fourth, 
Guatemala is ranked fifth in terms of the highest murder rates 
in the country.
    Since 2005, murders of men and boys increased 292 percent 
while the murders of women and girls increased 346 percent. In 
Honduras and El Salvador, in particular, child advocates 
reported increasing accounts of children being forcibly 
recruited to participate in gang activities.
    Consequently, the number of Central American migrants 
comprising of a rising number of children from the Northern 
Triangle region have steadily increased.
    In 2013, for the first time more than a third of the 
migrants whom the U.S. Border Patrol apprehended near the U.S.-
Mexican border were other than Mexican--migrants comprised 
mainly of Honduras, El Salvador and Guatemala. Mexican child 
migrants accounted for 82 percent of the nearly 20,000 
unaccompanied child apprehension in 2014 compared to 17 percent 
from the other three Northern Triangle countries.
    Astonishingly, these proportions reversed within the first 
8 months of 2014, with Mexican child migrants comprising only 
25 percent of the roughly 47,000 unaccompanied child migrants 
apprehensions and child migrants from the northern region of 
the countries comprising an overwhelming 73 percent.
    From Mexico, a country whose unaccompanied child migration 
numbers have declined but still serve as a primary thoroughfare 
for migrants from Central America, reports indicate that the 
migrants are increasingly citing widespread incident of 
extortion, kidnapping and other abuses committed by both 
criminal groups and Mexican federal, state and local police 
officials.
    Mexico must work together with the Central American 
neighbors to address security concerns along the southern 
border, in addition to initiatives that strengthen 
institutions, sustaining the rule of law, and protect human 
rights.
    This crisis has emerged within the backdrop of increasing 
foreign policy challenges, limited resources and a stalled 
effort to enact comprehensive immigration reform.
    This crisis has not emerged halfway across the globe. It 
has unfolded at our own doorsteps, and underscores the need to 
pay appropriate attention to our own hemisphere.
    Now more than ever, the U.S. should support the region in a 
concerted regional strategic strategy to increase economic 
opportunity, strengthen the rule of law, improve the integrity 
and effectiveness of police and security forces, and undermine 
the conditions that give way to gang and family-related 
violence.
    These measures are futile, however, if not accompanied with 
a concerted effort to reintegrate these children back into 
their respective communities. Moreover, U.S. regional security 
aid programs like the Central American Regional Security 
Initiative must be dynamic enough to address ongoing citizen 
security concerns with the complementary programs designed to 
address underlying economic, social conditions that have 
communities vulnerable to criminal threats and ultimately 
result in immigration.
    Vice President Biden visited the region's leaders and the 
administrations' announced plan to address the ongoing crisis 
are positive first steps.
    However, with the Fiscal Year 2014 budget that has been 
reduced 20 percent to $130 million the U.S. must do more. This 
includes addressing the issues of millions of undocumented 
immigrants and their families.
    I call upon the region's government to work with the United 
States and do their part to find solutions to this government--
to this growing humanitarian crisis, provide a safe environment 
for the children and address the underpinning of what is 
compelling these young children to abandon their homeland to 
risk their lives to come to the U.S.
    I look forward to hearing from our panelists and their 
assessment of how we can address this unfortunate crisis.
    Mr. Salmon. Thank you. I understand Mr. Duffy does not have 
an opening statement. Is that correct? Mr. Castro, you are 
recognized.
    Mr. Castro. First of all, thank you, Chairman and Ranking 
Member, for allowing me to join you today. Although I serve on 
the Foreign Affairs Committee, I am not on this subcommittee, 
so thank you.
    The tragedy that is going on at our border is a direct 
result of the U.S. House of Representative's failure to pass 
comprehensive immigration reform. The fact is if we had passed 
either the Senate or the House bill, there were resources for 
both border security, international cooperation and it would 
have outlined a path for clear legal migration this country.
    And yet as this has unfolded, everybody has been pointing 
fingers at each other--at the President, at the different 
parties--and the fact is that this body has failed the American 
people. We need to make sure, and the best thing that we can do 
is solve this situation, which is a humanitarian crisis.
    I had a chance to visit Lackland Air Force Base, which is 
one of the emergency shelters that is housing the kids in San 
Antonio. I was told the story of a 6-year-old boy who traveled 
from I think it was Honduras with his 2-year-old sister, and 
during the journey they were separated and this kid was torn up 
because he thought his sister had died.
    And they reunited them when they were both in custody and 
they were still held, and you all are right that there are 
rumors that the coyotes and the cartels are pitching to very 
desperate people. But the reason that those rumors are 
successful is because this Congress has failed to take real 
action on immigration reform.
    So the very best thing that we can do to dispel those 
rumors and to create real change and fix this is to pass 
comprehensive reform, and I hope that we can do that this year. 
Thank you, Chair.
    Mr. Salmon. Pursuant to Committee Rule 7, the members of 
the subcommittee will be permitted to submit written statements 
to be included in the official hearing record. Without 
objection, the hearing record will remain open for 7 days to 
allow statements, questions and extraneous materials for the 
record subject to the length limitation in the rules.
    And now I am going to introduce the panel. First, we have 
Mr. Palmieri. He is the Deputy Secretary for Central America 
and Caribbean for the Bureau of Western Hemisphere Affairs and 
at the Department of State.
    Prior to his current assignment, he served in the Dominican 
Republic, El Salvador, Honduras and as the senior desk officer 
for Venezuela. He has also led INL's Latin America and 
Caribbean Programs Office. Mr. Palmieri holds an M.S. in 
international strategic studies from the National War College 
and a B.A. in politics from Princeton University.
    Mr. Lopes is the deputy assistant administrator for the 
Bureau of Latin America and Caribbean at USAID. Prior to 
joining USAID, he worked for the House Appropriations State 
Foreign Operations Subcommittee. He holds a B.M. from Berkeley 
College of Music and an M.P.P. from Harvard University's 
Kennedy School of Government.
    You all understand the lighting system. When it goes amber 
you got a minute, and when it goes red it is time to stop. And 
so let us go ahead and begin.
    Mr. Palmieri, we recognize you first.

STATEMENT OF MR. FRANCISCO PALMIERI, DEPUTY ASSISTANT SECRETARY 
   FOR CENTRAL AMERICA AND THE CARIBBEAN, BUREAU OF WESTERN 
          HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Palmieri. Chairman Salmon, Ranking Member Sires, 
members of the subcommittee, I am very pleased to speak with 
you about the Department of State's role in addressing the 
migration of unaccompanied children to the United States, 
particularly from Central America.
    I appreciate your attention to this important issue, and 
look forward to working with you. The administration is deeply 
concerned by the substantial increase over the past year in the 
number of children who are leaving their countries and 
attempting to migrate illegally to the United States.
    We know that they are primarily arriving from El Salvador, 
Guatemala and Honduras. The number of children from those 
countries arriving at the southwest border has overwhelmed 
existing facilities.
    The U.S. Government is working nonstop to arrange humane 
care for these children, consistent with U.S. legal 
requirements once they have arrived in the United States.
    The Department of State in coordination with other 
agencies, with the Federal Emergency Management Agency in the 
lead, is working on a rapid government-wide response in the 
short-term while realigning our long-term efforts to address 
the systemic challenges in the region that drive migration.
    Most importantly, at the senior levels of this 
administration, including the President, Vice President, 
Secretaries of State, Homeland Security and our Ambassadors in 
the region, we are engaging every day with our foreign 
government counterparts to help stem the flow of children 
leaving their countries.
    We are doing this not just because it is part of enforcing 
our laws, but because it is the right thing to do to help these 
vulnerable children. Our first concern must be these children's 
safety.
    Not only are these children exposed to life-threatening 
risks on the journey to the United States, but they are being 
misled about potential immigration benefits available in the 
United States.
    For that reason, we are taking concrete steps to stop the 
spread of misinformation through criminal networks, which 
encourage these hazardous journeys.
    To counter these messages, we and the Department of 
Homeland Security with Central American governments and Mexico, 
are developing new targeted public service announcements that 
will better reach the population centers that are the source of 
many of these vulnerable child migrants.
    Our Embassies in all of these countries and in Mexico have 
launched aggressive public outreach campaigns to counter false 
messages and to accurately portray the dangers of the journey.
    Our Ambassadors constantly engage with the media in these 
countries on this issue. Again, we are working hard to dispel 
the misguided notion that these children will not face 
deportation proceedings.
    Our Mexican and Central American partners are cooperating 
fully in this messaging and deploying complementary information 
campaigns in their respective countries.
    It is our goal that these information campaigns will better 
inform people in the region in order to prevent more children 
from making this incredibly dangerous journey.
    The Vice President also announced last week in Guatemala 
that the administration will spend an additional $10 million in 
support of increased repatriation capacity and specialized 
training on procedures for receiving returned citizens.
    In addition, the department continues to focus on a longer-
term approach to address the systemic issue Central American 
countries face and are creating the push factors behind this 
phenomenon--lack of economic, educational and employment 
opportunities, weak institutions and high levels of violence 
and insecurity.
    We are seeking to better balance our regional approach to 
prioritize and integrate prosperity, security and governance. 
We aim to address the need for job creation, attack insecurity 
and promote greater government accountability, all issues that 
are driving migrants, including these vulnerable children, to 
the United States.
    Mexico also plays an important role in addressing this 
humanitarian situation, and we are working closely with the 
Government of Mexico on short and long-term solutions, given 
our shared responsibility for promoting security in both 
countries and in the region.
    We are working to enhance our cooperation with Mexico to 
disrupt the organized criminal networks facilitating smuggling 
and strengthen their enforcement at Mexico's southern border 
with Guatemala. In addition, we are working with Mexico to 
increase enforcement along the dangerous La Bestia train route, 
which many of these most vulnerable migrants travel through 
Mexico.
    From a foreign affairs perspective, we are using our 
existing resources to both manage the near-term surge in 
unaccompanied children, and to implement programs to address 
the long-term challenges that constitute the complex and 
systemic factors driving migration.
    It is clear, however, that substantial transformative 
change in Central America requires greater efforts by all the 
actors involved, and we must work with Congress on this issue.
    It is equally clear that a whole government approach and 
greater collaboration with international partners is required 
to control the extremely high cost of the domestic, 
humanitarian and law enforcement response.
    Thank you, and I look forward to answering your questions.

    [The prepared statement of Mr. Palmieri follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                  ----------                              


 STATEMENT OF MR. MARK LOPES, DEPUTY ASSISTANT ADMINISTRATOR, 
  BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Lopes. Thank you, Chairman Salmon, Ranking Member Sires 
and members of the subcommittee. Thank you for the opportunity 
to discuss what the U.S. Agency for International Development 
is doing and can do to help curb the migration of unaccompanied 
children from Central America.
    For several years, USAID programs in Guatemala, Honduras 
and El Salvador have worked to prevent violence and criminality 
and prevent youth from entering into gangs. USAID currently 
supports over 120 outreach centers across the region.
    These centers are part of the portfolio of programs that 
make up USAID's contribution to the Central American Regional 
Security Initiative, which is a subset of programs that make up 
the overall $150 million USAID will invest in Guatemala, 
Honduras and El Salvador this year.
    This broader investment includes programs in education, 
health, agriculture as well as the environment, and we see this 
integral approach to programming as the right way to carry out 
USAID's mission, which is to end extreme poverty and to promote 
resilient democratic societies while advancing our security and 
prosperity.
    As Vice President Biden announced last Friday, USAID is 
launching a new 5-year $40 million program in Guatemala to 
improve citizen security to target particular communities and 
reduce the risk factors for young people to enter into 
violence.
    In El Salvador, USAID recently announced a 5-year $25 
million program that will open 77 new youth outreach centers, 
in addition to the 30 already in place there.
    These centers, like those mentioned above, offer at-risk 
youth the chance to get help with their homework, get 
mentoring, computer training, or better yet, training on how to 
fix a computer so they can later get a job doing so.
    USAID programs announced by Vice President Biden are part 
of a scaling up of prevention programs which reflect a 
recognition by our Government as well as by governments in the 
region that more financial and intellectual resources are 
required, to have a lasting impact on the root causes of 
violence and criminality.
    In the last 5 years, this recognition is visible. Many 
governments in the region now have prevention-oriented 
strategies in place. This was not always the case.
    USAID programs are designed to support those strategies and 
provide examples of that work so that the region's governments 
can expand and scale up in order to have a nationwide impact.
    Recently, President Hernandez of Honduras publically 
committed to allocating 30 percent of the funds collected 
through their security tax to support programs in violence 
prevention.
    Six hundred thousand dollars of the $1 million pledge from 
these Honduran resources has already been provided to expand 
the network of youth outreach centers across Honduras. This 
specific prevention-related programming by USAID is supported 
and integrated with our broader portfolio of work.
    For example, in Guatemala, USAID will invest $25 million in 
a new program to improve access and quality of education for 
underserved populations, including indigenous children in 900 
schools and vocational training for 2,000 out of school youth.
    As part of our Feed the Future work, in Honduras USAID aims 
to lift 50,000 families out of extreme poverty, reduce stunting 
of children under 5 by 20 percent and improve more than 280 
kilometers of rural roads, providing market access to thousands 
and thus improving economic prosperity.
    In addition, the private sector has a role and USAID is 
aggressively pursuing partnerships with the private sector both 
here in the United States as well as in the region, as civil 
society organizations bring more resources and more creativity 
to bear.
    In the last several years, USAID has leveraged 
approximately $40 million for partnerships with companies, 
local organizations and local governments in the region. For 
example, in El Salvador we are partnering with Microsoft to 
provide computer software and training to outreach centers to 
reach 25,000 youth in 13 high-risk municipalities.
    Our prevention efforts are designed both to have an 
immediate and measurable impact, but more importantly, to prove 
concepts and demonstrate that such investments can provide 
dividends beyond their cost.
    Preliminary findings from a 3-year impact evaluation 
provides statistically significant evidence that crime rates 
are lower and public perception of security is higher in the 
areas in which we work. This is good news, but the efforts need 
to be scaled up to see an impact on national level statistics.
    Mr. Chairman, USAID is well positioned when done in 
partnership with governments and the private sector in the 
region, and when successful programs are taken to scale to help 
improve economic and social well being in the region.
    By working together to keep children in school, train out 
of school youth for jobs and connect small farmers to markets 
as well as creating entry points for historically marginalized 
groups, the region can become more secure and prosperous for 
the long-term.
    This has been, and will continue to be, a principal focus 
for USAID and these efforts will continue to benefit citizens 
throughout the Americas. Thank you, and I look forward to 
answering any questions you may have.

    [The prepared statement of Mr. Lopes follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              

    Mr. Salmon. Thank you. I thank the witnesses for their 
testimonies. I will yield myself 5 minutes, and then will 
proceed with the ranking member and thank the witnesses.
    Mr. Lopes, thank you for your testimony and for outlining 
the various ways USAID has been working to improve the 
situation in Central America.
    Unfortunately, I have seen many of your colleagues come up 
to the Hill to deliver notifications on one program or another, 
but always lacking in specificity. The American people are, as 
you know, exceedingly generous in providing aid to countries in 
need to improve the lives of their citizens.
    Indeed, USAID efforts in Mexico and Central America can 
have a direct impact on our own security and lives, as this 
current crisis reflects. Enforced immigration laws combined 
with economic opportunity and security in Central America would 
have kept young children in their countries with their 
families.
    What I am saying is that I am supportive of USAID's efforts 
to help empower the nations of Central America as long as the 
money that we are spending is effective and efficient.
    I would like to see a comprehensive list country by 
country, project by project, including costs, implementing 
partner details and how specifically the said project directly 
helps the crisis level in security and lack of economic 
opportunity we are seeing in some Central American countries 
today, namely, the three that we have talked about. Can you 
provide me with those details?
    This level of specificity would go a long way in helping us 
to evaluate the effectiveness of our efforts there while being 
truly accountable to the taxpayer, and I think you would agree 
that we owe the taxpayer at least that.
    Mr. Lopes. Absolutely, Congressman. Yes, we can provide 
that information and certainly willing to work with your office 
and happy to come up and make sure that you have----
    Mr. Salmon. That would be great.
    Mr. Lopes [continuing]. A comprehensive set.
    Mr. Salmon. And I will share it with the committee when I 
get that.
    Mr. Lopes. Absolutely, and I also referenced in my opening 
statement one of the efforts that we have done to do a 
scientific analysis of the impact of our programs. This was an 
effort with Vanderbilt University to look at control groups and 
treatment groups----
    Mr. Salmon. Right.
    Mr. Lopes [continuing]. In communities where we had an 
impact, and we have seen statistically significant progress in 
the areas in which we work.
    Mr. Salmon. Can we get those reports too? That would be 
great.
    Mr. Lopes. I'd be happy to share that with you.
    Mr. Salmon. Thank you very much. And then I am going to ask 
one last question, and then I am going to ask Mr. Duncan to 
take over the chair for just a few minutes. I have got another 
thing I have got to attend to.
    But with both of you--with the USAID mission in Ecuador 
closing and our mission in the diplomatic environment in 
Bolivia it continues to present difficulties for our officers 
since the closing of USAID and the expulsion of our Ambassador 
there.
    Have State and USAID been looking for ways to redirect 
funding otherwise intended for Ecuador and Bolivia potentially 
going to address this crisis and working with Central America? 
I understand that some of the Ecuador USAID money is now going 
to environmental projects in Colombia and Jamaica.
    While I don't intend to denigrate the potential long-term 
benefits of sensitizing our neighbors to environmental 
stewardship, I would submit to you that this is maybe a far 
more immediate crisis and maybe we should try to direct some of 
that money to this crisis as well.
    Is that something that could be within the realm of 
possibility?
    Mr. Lopes. I can speak to that, Congressman. Happy to 
outline. With respect to the Ecuador money, that money was 
already designated to go to environment programs, particularly 
in the Andean Amazon. So we did not have the flexibility to 
divert those resources toward crime prevention programs in 
Central America.
    But that is the kind of flexibility that certainly we 
benefit from and our ability to have fully funded accounts as 
well as the flexibility to move those resources accordingly 
certainly helps us pivot quickly and direct resources toward 
where they are needed.
    Over the last several years, we have seen a shift in 
budgetary priorities from South America to Central America. In 
these budget times, a flatline is the new increase and that is 
where we have preserved resources for Central America, 
particularly focused on Guatemala, El Salvador and Honduras, to 
make sure that those countries, and particularly the efforts on 
crime prevention, were the overarching focus of USAID's work 
there combined with a series of other economic prosperity 
programs that we see as a part of the entire package toward 
having real jobs and real opportunities over the long run.
    So certainly the flexibility to provide those resources is 
useful, and we are happy to work with you to figure out what 
kind of things can be freed up looking----
    Mr. Salmon. Well, if there is anything that we can do to 
maximize that flexibility so that we can get the money to where 
we have actually got the problems--the most immediate 
problems--then I think we are all interested in a bipartisan 
way to get that done.
    I am going to yield back and ask the gentleman. He is next.
    Mr. Duncan. The Chair recognizes Mr. Sires from New Jersey.
    Mr. Sires. Thank you very much. This past week the Hispanic 
Caucus called a number of members to meet with some of the 
Ambassadors of these countries because of this crisis, and it 
was very disappointing to me that we had 13 members and only 
one----
    Mr. Duncan. If we could start the clock back at 5 minutes 
just due to the interruption in the back.
    Mr. Sires. Thank you. It was very disappointing to me that 
only one Ambassador showed up, and I let him know that we were 
all very disappointed because we all have our schedule.
    So my question to you basically is how serious or seriously 
are these countries taking the effort to deal with this 
humanitarian crisis?
    Because that to me was a sign that all they are looking for 
is they have a pressure cooker in their own country and this is 
one way of releasing some of that pressure and, you know, I am 
here to work--I have been here 8 years.
    I try to work as much as I can on a bipartisan basis to try 
to deal with some of these problems in the Western Hemisphere, 
especially these countries.
    But to have a situation like this and not have the decency 
to show up where 13 members who are their best supporters just 
makes it more difficult for us to assist them and more 
difficult for us to come up with some sort of immigration 
reform.
    So I am asking you in your dealings with some of these 
Ambassadors, some of these countries, give me a perception--
your perception of how seriously do they take this, or they are 
saying just send them to America and the pressure is off us.
    Mr. Palmieri. Thank you, Mr. Sires. The three Ambassadors 
from El Salvador, Honduras and Guatemala are all working very 
hard and have had extensive engagements with the 
administration.
    But more importantly than their engagements with us is the 
real work that they are doing to get additional consular 
personnel from their Embassies to the border region to 
facilitate the processing of these arrivals and ensuring the 
documents that they need to be able to identify these 
children----
    Mr. Sires. You know, that is all well and good. But I want 
to know what they are doing in their country to stymie this 
exodus, because this is a humanitarian crisis. You have kids as 
young as 5, young as 6.
    Just give me your opinion on what they are doing--what are 
they actually doing in their own country. And I must say that I 
am very proud of the way this country has handled those 
children because we have provided to them on a humanitarian 
basis. We have taken care of them. But I want to know what is 
going on in their own country.
    Mr. Palmieri. In Guatemala, El Salvador and Honduras, 
senior leaders across the spectrum--the Presidents, the foreign 
ministries--have been very active in echoing the messages about 
the dangers of the journey, about the real vulnerability these 
children suffer as they make that journey and are taking steps 
in Honduras.
    The President of Honduras has redirected their border 
enforcement units to focus on alien smuggling networks, and to 
try to make a more effective interdiction of children leaving 
the San Pedro Sula area.
    He is dedicated and called together an inter-institutional 
committee to address children's issues in the country with a 
direct focus on trying to stop the children from leaving.
    They all realize--all three countries' leaders realize how 
vulnerable and exploited these children can be on this 
dangerous journey. In Guatemala, President Perez Molina has 
issued statements as well, and in one province along the 
migration route through Guatemala there was a recent arrest of 
a police official who apparently was facilitating some of this 
type of smuggling.
    In El Salvador, likewise, the Foreign Minister and the 
President have been equally vocal about the real threat that 
their children are suffering when they make this journey and 
complementing the messages that we are saying, that there are 
no immigration benefits when these children arrive at the 
border.
    Mr. Sires. Do they recognize how difficult they make it on 
this Congress to come up with a comprehensive immigration 
reform when these things happen? Mr. Lopes, do you know?
    Mr. Palmieri. I think all three countries understand that 
the arrival of these unaccompanied children at the border will 
complicate and is complicating efforts to promote comprehensive 
immigration reform.
    Mr. Lopes. I think just a couple of examples from our side, 
one that I mentioned in my testimony in terms of the 30 
percent--I am sorry, the $600,000 of the $1 million pledge of 
Honduran resources, that is part of a commitment to use funds 
from a new security tax--30 percent of those for prevention 
activities.
    I am persuaded when governments put forward real money and 
they put forward that money toward backing prevention programs. 
So that is a positive. In addition, there is an asset seizure 
law where the proceeds from those seized assets end up going 
back to municipalities where those assets receive to help work 
on prevention programs in those municipalities, so that there 
is incentive for those municipalities to seize those assets, to 
then see those resources coming back around to help on the 
prevention side.
    Those are the kinds of partnerships beyond strategies which 
all free countries have which we see as new. The days of 
recognizing that prevention is an important piece of this are 
relatively new.
    Ten years ago, we wouldn't have been talking about the 
governments in the region being so acutely oriented toward the 
importance of social programs of economic opportunity, but 
rather focused more on law enforcement and efforts to punish 
people for a deviation from laws.
    Mr. Sires. My time is up. Thank you, Mr. Chairman.
    Mr. Duncan. I thank the gentleman. I recognize myself for 5 
minutes.
    This is a screen shot. This is one of the children. We are 
not talking about teenagers here. We are talking about very, 
very young--don't you love an iPad? You touch it in the wrong 
place and it goes away.
    It is a little girl. I would say she was probably, what, 
Sean, you got small children. Three? Three years old? She's 
coloring. All right.
    So what we are talking about if you look at that map, that 
area right there where that dot is dancing is the Guatemala-
Honduras area, the Mexican border. Brownsville, Texas is right 
here, the Rio Grande Valley.
    From the capital city of Honduras to Brownsville is well 
over 1,000 miles. Sean, could your 3-year-old travel 1,000 
miles without you, without your adult children, your older 
children accompanying them? I don't think so.
    The question I have is this. Historically, this border 
right here between Guatemala and Mexico has been one of the 
hardest places in the world to get through. What is Mexico 
doing to help us in this issue?
    What has changed within the country of Mexico that it has 
allowed 60,0000 children to transit that area? Whether they are 
Honduran or Guatemalan or El Salvadorean, they crossed that 
border and they came through Mexico to get to the United 
States.
    They didn't get on an airplane. They walked or they rode a 
train or in a car or something and we are talking about, what, 
3-year-olds? So what has changed within Mexico and that border 
situation? Mr. Palmieri.
    Mr. Palmieri. Thank you, Mr. Duncan. Mexico is working very 
hard with us to address these conditions, particularly on their 
southern border.
    We are looking at redirecting some of our foreign 
assistance through the Merida initiative to help strengthen 
Mexican interdiction efforts along their southern border. They 
have a southern border strategy that they have been executing. 
I think they are working very hard with us to try to have an 
impact on this flow and----
    Mr. Duncan. But what has changed? Because historically it 
is a tough border to cross. What has changed? What has changed 
in Mexico?
    Mr. Palmieri. I think that the alien smuggling networks 
have begun to prey on families' willingness to send these 
children, and they are using some of their other established 
smuggling routes to move these children through the region.
    But the Mexican Government's commitment to work with us on 
this has been reaffirmed and they are working closely with us 
because they understand the true human costs to these children 
and the need for better border enforcement and to work with the 
three countries in Central America to help stem this flow.
    Mr. Duncan. Let me shift gears for just a minute, because 
we have talked a lot about funding today. The administration 
has promised a series of new foreign assistance programs for 
Central American countries.
    However, according to a 2013--January of 2013 GAO report 
less than 28 percent of the funds appropriated from the year 
2008 through the Fiscal Year 2011 have been disbursed. Why is 
this? And hold that question.
    Why is it necessary to make additional foreign assistance 
commitments when you have not even used all the money that 
Congress have given you? And Mr. Lopes, you are fine to answer 
that--one of you.
    Mr. Lopes. Sure. Thank you. I think what was referenced in 
the GAO report is what we call pipeline, which is a build-up of 
resources that have yet to go out the door. My understanding is 
that pipeline is significantly diminished.
    We are happy to provide you an updated set of information 
with respect to those figures but also to say that, you know, 
the efforts that we have undertaken as USAID to ramp up our 
spending in these prevention efforts there is an absorptive 
capacity limit that is not something we can go from zero to 
$100 million from one day to the next.
    It takes some time to build that up. We have been in that 
process for several years, and I think we are well positioned.
    You saw some recent announcement by President--I am sorry, 
Vice President Biden with respect to new programs in the 
region--large-scale programs. We have now up to 120 outreach 
centers. So we are to a point where we are able to spend and 
move resources much more quickly. That is positive.
    In addition, we are also partnering with private sector and 
leveraging other funds from the private sector to get resources 
there. Resources there are certainly not the only piece of it.
    We need the kind of partnership that Mr. Palmieri was 
talking about from the governments in the region, from other 
actors that care about the outcome. The private sector is one 
that we have really aggressively reached out to because they 
care about security as well. It is a business issue for them. 
It is a bottom line issue.
    It affects their bottom line when people can't get to work 
on the buses. And so we have, through a series of partnerships 
and creative efforts, to get cameras on buses in San Pedro 
Sula, Honduras to get a police force that monitors those 
cameras.
    There are 54 cameras spread throughout the buses because 
they saw that buses is where the crimes are taking place and so 
what about a creative solution to work with the private sector 
there.
    Another effort is to get the private sector to donate 
street lamps. Those street lamps are then upgraded by the 
national electric utility, and the businesses get the benefit 
of those lights and everyone benefits from security.
    So it takes some time. We think we are there and we are 
getting to a point where we can spend a lot more and a lot 
faster.
    Mr. Duncan. I appreciate your comment. You kept going back 
to private sector, and we are talking about public sector 
dollars in programs to foreign countries, and I understand the 
public-private partnership and how USAID works. But let me just 
say this and then end the time here.
    I understand the humanitarian side of this. I am very 
sympathetic to the children that are there. I want what is best 
for them.
    But I also am very concerned about the national sovereignty 
of this nation and our porous southern border and also elements 
that may be coming along with the children that are transiting 
into our country and what they are coming for. So I think you 
are going to need to be able to answer that question.
    If you are going to ask me to provide a vote for more 
dollars for foreign aid to Central America, you are going to 
have to able to provide a little bit more explanation of why 
this money hasn't been spent or an explanation of how it has 
been if not allocated dedicated--that is, future expenditures 
and how it is going to be spent.
    Whether that is a graph or whether that is information to 
this committee, I think we deserve that if we are going to 
actually cast a vote to provide you more dollars.
    And with that, I will yield to the gentleman, Mr. Meeks.
    Mr. Meeks. Thank you. You know, just seems to me when I 
think about the creation of our country it was from individuals 
that were fleeing bad situations to a better situation.
    It is almost just human nature if you see something that is 
better you try to get to what is better and you want your child 
to have a better life than you have had. And so it is 
difficult, and based upon what I know specifically about this 
problem I would like to emphasize a few things real quickly, 
then ask a couple of questions because I think that this should 
be a wake-up call, number one--a wake up call that would cause 
us to refocus our attention on the Western Hemisphere--our 
region of the world.
    Current migration patterns demonstrate if we don't pay 
attention to what is happening just beyond our borders it will 
be to our own children. While the headlines of the day may draw 
attention to faraway places like Iraq and Iran and Ukraine and, 
make no mistake, these are important issues that also demand 
our attention, but we must not lose sight of what is happening 
closer to home.
    The reality is truly terrifying when you think about 
homicide rates and when you think about the fact that maybe a 
third of everybody in either whether it is Guatemalans, 
Hondurans or Salvadorans report being victims of a crime within 
the last year, the statistics go on. They are just staggering.
    Secondly, this is a serious humanitarian crisis which 
demands the attention of both our domestic and foreign policy 
experts, and we must study the underlying social and economic 
factors present in these countries.
    Lastly, we must also understand the inherent 
interconnectedness of the Americas and indeed of the global 
village at large. Gone are the days when we could analyze a 
country's domestic problems in a vacuum and as a result of the 
globalization problems like this one we must have a bipartisan, 
which I think we are trying to do in this committee, and 
multilateral strategies to rid Latin America and the Caribbean 
of the violence and gangs which are leaving our children with 
no option but to flee their homes in pursuit of a brighter 
future.
    That being said, I have been a long champion of trade 
capacity building. It was a significant part of the CAFTA 
negotiations in 2003 and 2004. In fact, it was the determining 
factor on why I was one of the few Democrats that voted for 
CAFTA because of the money that was put into trade capacity 
building.
    So that was part of it. It was millions of dollars we 
appropriated for this and USAID received a large percentage of 
these funds as well as a large percentage of the responsibility 
for ensuring that they were used wisely.
    So my question is have you been able to provide--and this 
is for either Mr. Lopes or Mr. Palmieri--an update or can you 
provide an update on the status of these funds and how have 
they been spent?
    Mr. Lopes. Certainly. Thank you, Congressman. I would like 
to give you a comprehensive written response to that to make 
sure that we cover all the funds.
    My understanding of those resources during the time of the 
CAFTA program is that there was a period of years through which 
there was a set amount that was dedicated toward particular 
training activities to dedicate resources to compensate for 
what was seen as shortcomings in their ability to carry out and 
to implement the Central American Free Trade Agreement.
    A lot of those efforts have run their course although, and 
so some of those programs I think have closed and resources 
have been dedicated toward new areas or ongoing priorities.
    I think it is certainly worth a look to ensure that the 
purposes for which those funds were dedicated have stuck, and 
that the capacities that we have put in there are still strong 
and that those trade agreements are still working.
    I am not sure to what extent there is a scope for USAID to 
engage in that or resources to follow up, but certainly I think 
a conversation around ensuring that any economic capacity 
building resources are being used as effectively as possible, 
and our office is happy to engage with yours on that.
    Mr. Palmieri. In addition, I think CAFTA-DR has had a 
measurable positive impact. The central economy--the Central 
American economies on average have doubled their GDP over the 
last 10 years.
    Exports to the United States through CAFTA are up 66 
percent. While CAFTA is not the only component of our program 
in the region, it is making a significant impact in 
contributions in some of the root conditions.
    Mr. Meeks. But here is the--here is the issue, and we have 
some of it here. You know, we talk about GDP and that is good.
    But sometimes that does not translate down to the common 
person who is trying to get a job and want to better themselves 
and improve their families. So the GDP sounds good for maybe 1 
or 2 percent at the top but what about everyone else?
    And that was part of what--the capacity building so that 
the jobs that would be created--it was about creating jobs here 
in America but also importantly about creating jobs there 
because guess what, folks? If we create jobs there they won't 
come here. You know, they come here for opportunity.
    So that is what is important to get done. So I would like 
to see a comprehensive report to look at the jobs that we could 
have created there so that individuals have an opportunity and 
then talk about the security network that surrounds that, 
because if that happens then we don't have to worry about, you 
know, people crossing our borders all the time.
    Mr. Palmieri. Yes, sir.
    Mr. Duncan. I thank the gentleman for his comments and the 
Chair recognizes Mr. Duffy from Wisconsin.
    Mr. Duffy. Thank you, Mr. Chairman. In my short time here 
in Congress--3\1/2\ years--I don't think I have seen an issue 
that has made me more angry than seeing 4-year-olds and 6-year-
olds and 8-year-olds by themselves with smugglers or coyotes 
coming to the American border.
    I have kids those age--4, 6, 8, 10, 12, 14--a lot of them. 
And I could tell you what, to think that they could be 
traveling on their own to the American border is absolutely 
outrageous and that our Government has played a part in this 
push--in the pull of the push and pull is absolutely outrageous 
and it is unacceptable.
    Mr. Palmieri, in your comments about--oh, let me--I won't 
go there. Do you have a report for us about what kind of 
horrors these children experience during their 100-plus--
hundreds of miles journey here? Rape, abuse, murder? What 
information do you have on what they experience on their route 
to America?
    Mr. Palmieri. The journey is incredibly dangerous and----
    Mr. Duffy. I know that. What specifics do you have?
    Mr. Palmieri. And we know that individuals and children in 
particular who undertake that journey suffer different forms of 
violence. They could be sexually----
    Mr. Duffy. Have you done studies?
    Mr. Palmieri [continuing]. There are reports of sexual 
assault. There are reports of mass killings in the past. There 
are reports of being kidnapped, and then extorted for 
additional funds as they are crossing along the journey.
    There are reports of children who have been maimed trying 
to board trains that are moving to the north. The dangers are 
significant. They are very well documented, and we can get you 
a full report on that.
    Mr. Duffy. I would welcome that. Are you a parent?
    Mr. Palmieri. I am a parent, and I also----
    Mr. Duffy. Okay. I just want to ask you a question. So do 
you think that you need your government to tell you that--I 
don't know how old your children are, but if you have a 4-year-
old do you need the government to say, listen, you are going to 
send your child, your 4-year-old or your 6-year-old, on a 
multiple 100-mile journey?
    It is dangerous. You don't know the coyote. You don't know 
the smuggler. News flash to all of you who want to spend money 
to go, this is a dangerous trip for my child. I would say that 
is pointless.
    It muddies the message, and you told us that is part of the 
messaging that you are doing in these countries. I think it 
makes more sense to say the American border is closed. This 
trip will be for naught. If you get there, I am sorry. We are 
compassionate.
    The President has talked about our DREAMers. But if you 
come you are going to be sent back. Don't make the trip. But 
that you are telling parents that this is dangerous, parents 
aren't stupid. I mean, this is insulting that you tell a parent 
that it is a dangerous trip.
    Mr. Palmieri. The messages combine both messages, Mr. 
Duffy. Not only are we explaining the dangers of the journey 
and making it very real for these parents to consider, but we 
are also making clear that there are no immigration benefits in 
the United States when you arrive.
    Mr. Duffy. Are you telling them that the border----
    Mr. Palmieri. That there will be no----
    Mr. Duffy. So to that point are----
    Mr. Palmieri [continuing]. Benefit under the deferred 
action on childhood arrivals, that there will be no benefit 
under comprehensive immigration reform.
    Mr. Duffy. And to back up that point, have you been sending 
any of these children back home?
    Mr. Palmieri. There have been very few----
    Mr. Duffy. That is right. There has been very few. So 
isn't----
    Mr. Palmieri [continuing]. Deportations of the 
unaccompanied children because we have to first attend to their 
humanitarian needs----
    Mr. Duffy. So wouldn't the message----
    Mr. Palmieri [continuing]. And connect them to a guardian 
or a relative who can receive them.
    Mr. Duffy. So the message really is you send them and they 
don't get deported. They haven't been deported. They get to 
stay.
    You can say all you want but the messaging has been if you 
send your children to the American--the U.S. border they will 
be allowed in and they won't be sent back to the country of 
origin, and I think that is the wrong message. And you would 
agree that this is a humanitarian crisis that involves 
children, yes?
    Mr. Palmieri. It is an acute humanitarian situation these 
children are suffering.
    Mr. Duffy. What is the pull that has brought these kids to 
the United States?
    Mr. Palmieri. The factors we see, and it is a very complex 
issue as you have just outlined, is there are factors both in 
their home country related to----
    Mr. Duffy. That is the push. I'm talking about what is the 
pull. What is the pull bringing them up here?
    Mr. Palmieri. And they have family members, obviously, in 
the United States that they are trying to reunite.
    Mr. Duffy. Do you think it has anything to do with the 
President's comments about immigration--the President's 
policies on our border?
    Mr. Palmieri. I think the administration's message has been 
very clear since this situation has expanded, that there are no 
immigration benefits for these children who are arriving; that 
they will be given notices to appear for deportation 
proceedings and that the journey will be futile.
    Mr. Duffy. This is a humanitarian crisis that involves 
children. I think it is of the utmost seriousness. What 
comments publicly has the President made to say listen, our 
borders aren't open and if you send your children they will be 
deported back to their country of origin? What public comments 
has he made to that effect?
    Mr. Palmieri. The messages we are sending out are really 
loud and clear.
    Mr. Duffy. That is not my question for you. No, no, no, no. 
My question is what has--this is serious stuff. It involves 
children. What has the President said publicly about sending 
these children home? He hasn't said anything, has he?
    Mr. Palmieri. I will gather the President's statements and 
deliver them.
    Mr. Duffy. He has--he has made public statements to this 
effect? I haven't seen them. I haven't heard them. You have?
    Mr. Palmieri. In the announcement about the humanitarian 
situation, the President emphasized that we had a humanitarian 
need.
    Mr. Duffy. Did he say that our borders were closed? I mean, 
it is a humanitarian crisis but he is not saying listen, of 
course, it is a humanitarian crisis but listen everybody, our 
borders are closed. If you come we are going to send you back 
home.
    That would go a long way to sending the message to these 
specific three countries that if you send your kids it is 
dangerous, and they are not going to get the benefit that you 
talked about in your testimony.
    If the President says that, that goes a long way and I 
think save the little kids' lives. I used to prosecute child 
sexual assault cases.
    They are the most horrific cases that you will ever handle 
as a prosecutor, and to think that these kids will go through 
these horrors and the President won't stand up and say listen, 
there is no benefit--please don't send your children, and he 
says it publicly and strongly. I think that is the wrong 
message from this administration. I yield back.
    Mr. Salmon. Thank you. Mr. Smith.
    Mr. Smith. Thank you very much and I want to thank my 
friend, Mr. Duffy, for raising the issue. This is serious stuff 
and we all get it.
    Like my colleagues, I am extremely concerned about the 
welfare and well being of these children. Back in the early 
1980s, I wrote the Child Survival Fund, put it at $50 million 
and went to El Salvador when there was a day of tranquility 
when the FMLN and Napoleon Duarte had a cease fire simply to 
vaccinate children against polio, diphtheria, pertussis.
    So members of this panel and Mr. Duffy, as having 
prosecuted some of these horrific cases, we are in solidarity 
with these children. We are deeply concerned about it.
    So I would like to ask a few very specific questions 
because they are vulnerable to sickness. They are vulnerable to 
abuse and even death. I have worked on neglected tropical 
diseases for the entirety of my 34 years as a Member of 
Congress.
    We have a bill pending that deals with that. Last year I 
had a hearing on NTDs by one of the greatest experts in the 
world, Peter Hotez, ``Forgotten People, Forgotten Diseases.'' 
He points out that in this very incisive book as you know, I'm 
sure, to my friend from USAID, the places where these kids are 
coming from are endemic with hookworm, roundworm, whipworm and 
many, many other parasitic infections.
    This long journey, the strain on their young and very 
fragile beings, certainly can exacerbate those problems. So 
first question, are U.S. medical personnel screening for NTDs?
    Are they asking the right questions, doing the right kind 
of analysis to determine whether or not a child is carrying 
worms which certainly makes him or her vulnerable to other 
opportunistic infections?
    Secondly, on human trafficking, I am the author of the 
Trafficking Victims Protection Act of 2000. It is the bill, the 
landmark bill on combating trafficking, yet in my own district 
in Lakewood we had a situation where a Mexican trafficker had a 
number of Mexican women and young girls.
    That was busted. They are being prosecuted. We have 
Honduran gangs in Trenton. They are doing the same thing with 
mostly Honduran young girls and we know it is everywhere.
    Gangs have not replaced but have been added to the issue or 
the exploiters and we know that these gangs, including some of 
these gangs coming out of Central America, are exploiting young 
girls and young women.
    So my question would be about trafficking. What is being 
done to mitigate the possibility and, I would say, high 
probability of these girls and young women being forced into 
prostitution and to other kind of servitude?
    There was a report that just came out, and I would commend 
it to your reading that something on the order of 90 percent--
88 percent was the number they give--of trafficked women at 
some point have contact with a health care provider.
    About 60 percent are emergency rooms, and yet, from the 
interviews of well over 100 trafficked women it was discovered 
with shock and dismay that they never asked, even though there 
was bruising, there were other kinds of indicators of abuse, 
whether or not that woman was in trouble and needed to be 
rescued.
    My hope is that our health officials and others will be 
looking for the telltale signs, many of which are subtle but 
looking for them nevertheless to ask the right questions--are 
you being trafficked, are you being exploited? Because that is 
a huge problem.
    You know, we see it with tsunamis and with hurricanes. We 
were very concerned when the hurricane or typhoon hit the 
Philippines, and I went to the Philippines. Every question I 
asked was about what is being done to ensure the exploited are 
not and USAID did a wonderful job, frankly, during that typhoon 
period to ensure that that didn't happen.
    I know I will run out of time, but HHS is vetting--when 
people are handed over and children are handed over to 
relations that might be family how are they vetting to ensure 
that who that child is passed over to is not an abuser, a 
trafficker or someone purporting to be a family member?
    Are they overwhelmed to the point where they are 
contracting that out? Because that would be a serious problem. 
I mean, how well--you know, we don't want to find 6 months from 
now that kids have been passed over to trafficking rings, and 
it can happen.
    It can happen very easily when you have an overflow of 
crisis like this. So if you could touch on that as well. And 
finally, the administration is pushing fast track of the Trans-
Pacific Partnership and the inclusion of Vietnam within the 
TPP.
    Four Congresses in a row I have gotten passed in the House 
the Vietnam Human Rights Act. It has died in the Senate each 
time, sadly. It may get passed this year--who knows? But we 
know that even the State Department's book on trafficking just 
came out on Friday that Vietnam is a major source of labor 
trafficking and many products are made with child labor in 
Vietnam.
    And yet they will now, if this treaty goes through on fast 
track, be in a situation where they will displace many of the 
textile capabilities of the Central American countries and put 
them out of business.
    When you have forced labor, those dirt cheap wages, if 
there are wages at all, certainly makes the competitive 
advantage go toward Vietnam.
    Is that being considered with the TPP or are you guys, for 
example, in the Western Hemisphere saying time out, Vietnam is 
an abuser, this will hurt Central America and will hurt El 
Salvador in an extremely--in an extreme way, and I think that 
is--we have got to put that on the radar.
    So if you could speak to that as well, and I thank the 
chair for yielding time and if they could answer those 
questions I would deeply appreciate it.
    Mr. Salmon. You know what? Go ahead. Take your time and 
answer those questions. This is the last question, and then we 
will close after that. So no problem.
    Mr. Palmieri. With regard to the screening processes of the 
children who are arriving, my understanding is that the Health 
and Human Services Department has the primary responsibility 
and would have the best information.
    We do understand that there is both psychological and 
medical screening of all these children when they arrive, and 
that there is background checks done on who these children are 
being turned over to once they are processed through. The HHS--
--
    Mr. Smith. But how do you do a background check? Is it----
    Mr. Palmieri. I would say we would have to get back to you 
with a more specific answer----
    Mr. Smith. If you could get back with more specifics on 
that I would appreciate it.
    Mr. Palmieri [continuing]. From the Health and Human 
Services Department. I think your comments about the potential 
impact of TPP on Central America is something that we are all 
watching closely in the Western Hemisphere, in particular those 
governments themselves.
    The trade representative have given us good information 
that TPP should not have a direct negative impact as the CAFTA-
DR benefits should allow these countries to continue their 
access to our market even after TPP is moved forward. And I 
think that is----
    Mr. Smith. Because of tropical diseases perhaps USAID 
wanted to get this.
    Mr. Lopes. Sure. Thank you, Congressman. First of all, 
thank you for your comments about USAID and their response, and 
thank you for your leadership on this issue.
    In 4 years in this job it is the first time that neglected 
tropical diseases has come up in a direct briefing or hearing 
that I have participated in, and I know that those issues are 
very real for a lot of people.
    It is part of our effort to continue with a broad base of 
programs--environment, health, agriculture--that are sort of 
all woven in to the root causes of opportunity. Health--if 
people can't sort of get through the basic health the first 5 
years of their life they are certainly not going to be able to 
be positioned well to have opportunities and the ability to 
have an economic well being, which we have heard from our 
initial assessments, trying to understand why people are 
getting on these buses and trains--that, you know, certainly, 
that is one of the causes they have referenced.
    We have limited health programs in the region compared to, 
say, 5 years ago in Latin America. We do have grants through 
the Pan American Health Organization and we do have some 
limited engagement on neglected tropical diseases. I can't 
speak specifically to hookworm or roundworm but we are happy to 
get back----
    Mr. Smith. Is that something you could ask--also ask HHS or 
whoever is administering the program who is on the ground? 
Because if they are not looking for it, again, co-morbidity is 
very high and these kids are walking with worms. Rather than 
feed the future we are feeding the worms and I know, you know, 
you understand that.
    But if it is not being done as they come across the border 
this is a golden opportunity, one of the good positive outcomes 
that come from this mass influx, is to screen these kids and 
get them the deworming drugs to improve their lives.
    Mr. Salmon. If I could interject, I went and visited the 
facility in Nogales where there is 1,250 children. So 
Representative Smith, there is 140 CBP officers working to care 
for these children and then there are FEMA representatives and 
there are HHS people there and they are doing health screenings 
for every child that is there.
    Now, I don't know about the specifics of the worm issue but 
I know that the health of these children is a prime focus of 
our personnel that are on the ground working with these 
children.
    In fact, one of the young teenagers that was there actually 
had a baby. Now, she didn't have it there in the facility. They 
took her to the local hospital in Nogales. But I saw her in one 
of the facilities with the baby by her side. And so----
    Mr. Smith. I appreciate that, and I appreciate your work on 
NTDs as well--a leader in the Congress. But if that is 
something you could check with them--if they are not looking 
perhaps to look to provide some healthier outcomes for these 
children.
    Mr. Lopes. Yes. Certainly, I will get----
    Mr. Smith. I appreciate it. And on the trafficking real 
quick, hopefully the interagency council headed up by Luis 
CdeBaca is deploying very knowledgeable people to hopefully 
catch this working with law enforcement, of course, because it 
has gone under--right under our nose--two of my cities, major 
busts.
    I will never forget when Chris Christie was U.S. Attorney. 
Remember that? Albio Sires will remember this. A bedroom 
community, whole group of Mexican minors found having been 
trafficked.
    He busted up that ring and thankfully repatriated the young 
girls with their parents and families. But it could be going on 
in a very, very dangerous and robust way, if we are not 
careful, under the guise of this influx of children.
    Mr. Duncan. Will the gentleman yield?
    Mr. Smith. Yes.
    Mr. Duncan. I just want to say for the record, Mr. 
Chairman, there is not a single person on this dais or on this 
committee or in this Congress that is not very sympathetic to 
the humanitarian challenge that we have down there concerned 
about the children.
    Oftentimes our comments are taken--when we focus on the 
border we focus on immigration reform, we focus on security and 
national security issues and what not. But we are very 
concerned about the children, and we want to make sure they are 
cared for.
    We want to make sure they are reunited with their parents, 
hopefully in their home country, so they can return back to a 
normal way of life in their country and don't put a strain on 
the American resources.
    But I think that is lost in the debate a lot of times that 
we are not concerned about children and absolutely we are. And 
so with that, I appreciate the gentleman yielding.
    Mr. Salmon. And I am going to go ahead and just provide 
closing statements, and I am going to kind of segue from what 
you just said because it is about security. It is about our 
border.
    But more than anything, the thing that kind of trumps them 
all is that the current policy is not compassionate. It is not, 
because for every child that ends up in one of these facilities 
and then is in the United States for 7 years waiting for a 
hearing because of some of our laws and we need to change 
those--we do--a child didn't make it.
    The child may have died in the desert. The child may have 
been killed. That child may have been sold into slavery. And so 
what we are doing now is not compassionate, it is not smart and 
is not good policy.
    And so we need to make sure that we send a clear message to 
those countries that if they pay $5,000 to $8,000 to get their 
child to America to get a free pass it is not going to be 
fruitful.
    They won't get a free pass. Then they won't be spending 
that money anymore with these coyotes to get that done. They 
just won't. It will be a deterrent.
    And so it is in all of our interests, on both sides of the 
aisle, to get that done and make sure that these children are 
back with their families in that loving environment.
    So that having been said, this subcommittee is adjourned.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record Notice 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
